<html>
<title> - THE GLOBAL CRISIS OF RELIGIOUS FREEDOM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                    THE GLOBAL CRISIS OF RELIGIOUS FREEDOM

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 27, 2015

                               __________

                           Serial No. 114-145

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 __________
                                 
                                 
                                 
                     U.S. GOVERNMENT PUBLISHING OFFICE                  
97-331PDF                     WASHINGTON : 2016                     
                                 
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4e293e210e2d3b3d3a262b223e602d212360">[email&#160;protected]</a>  
                                
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota
DANIEL DONOVAN, New York


     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                                 
                               -----------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS,Tennessee           AMI BERA, California
TOM EMMER, Minnesota
DANIEL DONOVAN, New York
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable David N. Saperstein, Ambassador-at-Large for 
  International Religious Freedom, U.S. Department of State......     5
Robert P. George, Ph.D., chairman, U.S. Commission on 
  International Religious Freedom................................    34

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable David N. Saperstein: Prepared statement............    10
Robert P. George, Ph.D.: Prepared statement......................    40

                                APPENDIX

Hearing notice...................................................    68
Hearing minutes..................................................    69

 
                 THE GLOBAL CRISIS OF RELIGIOUS FREEDOM

                              ----------                              


                       TUESDAY, OCTOBER 27, 2015

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 12:30 p.m., in 
room 2172 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and good 
afternoon to everyone.
    The world is experiencing an unprecedented crisis of 
international religious freedom, a crisis that has and 
continues to create hundreds of millions of victims, a crisis 
that undermines liberty, prosperity, and peace, a crisis that 
poses a direct challenge to the U.S. interests in the Middle 
East, Central and East Asia, Russia, China and sub-Saharan 
Africa, to name just a few.
    In large parts of the world this fundamental freedom is 
constantly and brutally under siege. The worldwide erosion of 
respect for this fundamental freedom is the cause of widespread 
human suffering, grave injustices, refugee flows and 
significant threats to peace.
    This Congress has heard the cries of Iraqi and Syrian 
Christians who face the threat of extinction, slavery, and 
death.
    We have heard about the plight that Rohingya Muslims who 
face attacks and such unimaginable discrimination from hardline 
Buddhist groups that many choose slavery elsewhere than life in 
Burma.
    We have heard about the persecution faced by Chinese 
Christians, Tibetan Buddhists, Uyghur Muslims and Falun Going 
at the hands of the Communist Party, suspicious of organized 
religion.
    Many of us on this subcommittee have seen first-hand the 
religious dividing lines in sub-Saharan Africa that are the 
cause of so much death and destruction, especially by groups 
like al-Shabaab and Boko Haram.
    In a world where some people are willing to kill those 
whose beliefs are different from theirs, where anti-Semitism 
persists even in the most tolerant of places, and where 
authoritarian governments use strong religious faith as a 
potential threat to their legitimacy, it is more important than 
ever that the United States engage in robust religious freedom 
diplomacy, which uses all the tools available enshrined in the 
landmark International Religious Freedom Act of 1998.
    The stakes are too high and the suffering too great to 
downplay religious freedom in U.S. foreign policy. But, 
unfortunately, we often hear from religious groups globally and 
from NGOs working on the issue that this administration has 
sidelined the promotion of religious freedom.
    This criticism does not discount the exemplary work done by 
our men and women at the State Department and the efforts of 
Ambassador Saperstein himself.
    They do important and substantive work but it seems too 
often that the issue is marginalized and isolated from issues 
of national security or economic development even though we 
know from academic research that countries with the highest 
levels of religious freedom experience more prosperity and less 
terrorism.
    Religious persecution has catastrophic consequences for 
religious communities and for individual victims. But it also 
undermines the national security of the United States.
    Without religious freedom, aspiring democracies will 
continue to face instability. Sustained economic growth will be 
more difficult to achieve.
    Obstructions will remain to the advancement of the rights 
of women and girls and perhaps most urgent of all religious 
terrorism will continue to be nourished and exported.
    The global religious freedom crisis will not disappear 
anytime soon. According to the nonpartisan Pew Research Center, 
75 percent of the world's population lives in countries where 
severe religious persecution occurs regularly.
    It has been almost 17 years since the passage of the 
International Religious Freedom Act of 1998. For the record, I 
chaired virtually every one of the hearings that led to its 
passage, and as we all know it was authored by Congressman 
Frank Wolf, a tremendous advocate for religious freedom.
    Religious freedom diplomacy has developed under three 
administrations of both parties. Unfortunately, the grim global 
realities demonstrate that our Nation has had little effect on 
the rise of persecution and the decline of religious freedom 
and it is worth asking why.
    Is it worth asking not only what the State Department is 
doing, but more importantly, what can be done better? Are new 
tools and new ideas needed to help U.S. religious freedom 
diplomacy address one of the great crises of the 21st century?
    Does the International Religious Freedom Act of 1998 need 
to be upgraded to reflect 21st century realities? That is why I 
introduced the Frank Wolf International Religious Freedom Act 
of 2015.
    This legislation named after the author, as I mentioned a 
moment ago, of the original IRF Act would, among other things, 
strengthen the role of the Ambassador-at-Large for 
International Religious Freedom and the International Religious 
Freedom office at State and give more tools to the 
administration to address the crisis we face.
    The bill is roundly endorsed and supported by a broad 
diverse array of religious freedom, civil society, and diaspora 
organizations.
    They acknowledge what too many policymakers and 
administrations, Republican and Democratic alike, have been 
unable to appreciate.
    America's first freedom ought to be infused at every 
possible level into our foreign policy. Upgrading and 
strengthening U.S. international religious freedom policy and 
further integrating it into U.S. foreign policy, and national 
security strategy, will send the clear message that the U.S. 
will fight for the inherent dignity of every human being and 
against the global problems of persecution, religious 
extremism, and terrorism.
    In so doing we can advance the best of our values while 
protecting vital national interests.
    I would like to yield to Mr. Cicilline for any opening 
comments he might have.
    Mr. Cicilline. Thank you, Mr. Chairman, and I want to thank 
you and Ranking Member Bass for your leadership and for calling 
today's hearing on the global crisis of religious freedom to 
give us an opportunity to discuss the current state of 
religious freedoms throughout the world.
    And while the hearing title suggests solely a focus on 
crises, it is my hope that we might also hear about examples of 
positive trends in policy development and successful efforts to 
open spaces for religious expression all across the world.
    Spirituality and deeply held religious beliefs are central 
to the lives of billions of people in the world and the freedom 
to hold those beliefs without fear of persecution is essential 
for the respect of basic human rights.
    I want to offer my appreciation to today's witness for 
agreeing to participate in this hearing including Ambassador 
David Saperstein from the United States State Department and 
Mr. Robert George, chairman of the U.S. Commission on 
International Religious Freedom.
    I commend your dedication and commitment to ensuring 
religious freedom in the world as an extension of the ethos of 
the human rights of all people regardless of race, creed, 
sexual orientation, or political affiliation must be respected.
    I look forward to hearing your perspectives on the status 
of displaced persons on the continent, the status of religious 
freedom in the world, and the impact it has had on the human 
rights of all people.
    In a time when sectarian violence rages within and between 
various world religions and the repression of religious 
minorities persists, it is critical that we raise awareness of 
these challenges as well as offering continuous support to 
national, regional, and global institutions which seek to 
address these issues.
    The infringement of religious beliefs and exercise goes 
beyond just a human rights violation. It poses a threat to 
national and regional peace and stability and creates 
conditions for marginalization and poverty within persecuted 
groups as well as so many other negative consequences on the 
individual and on society.
    Whether it is the desecration of mosques, churches, or 
synagogues or the defamation of violent assaults against 
adherents to particular religious groups, it is critical to 
provide oversight and forward-thinking policy in these matters 
to ensure that we can help to expand religious freedoms 
worldwide.
    As a proud representative from the state of Rhode Island, a 
state founded by Roger Williams in pursuit of religious 
liberty, this is an issue particularly important to me and to 
my constituents.
    And I know that I stand with all of my colleagues in 
Congress in our commitment to uphold the religious freedoms and 
to expand global human rights and I look forward to the 
testimony of our witnesses today, and I yield back, Mr. 
Chairman.
    Mr. Smith. Thank you very much.
    I would like to now yield to the chairman of the 
Subcommittee on Europe, Eurasia, and Emerging Threats, Dana 
Rohrabacher.
    Mr. Rohrabacher. Thank you very much and thank you, Mr. 
Chairman, for your stalwart efforts over the years on the 
issues of human rights but particularly on this particular 
human right, which is the right to worship God or not worship 
God according to one's own conscience.
    And you have played such an important role. You personally 
have saved thousands of lives and I want to thank you for that 
and people ought to know that our activism here has an impact 
overseas for people who are living in a shadow of tyranny and 
repression and murder.
    We know that suppression of religious freedom has been--
always been part of the human condition.
    We know that the history of Christians, even 1,000 years 
ago we had Christian armies slaughtering each other or going 
into separate countries and slaughtering the Huguenots for 
killing the Catholics and et cetera, et cetera.
    That, I am pleased to say, thanks to people like you in the 
United States and in the Western world is something we have put 
behind us now and it is important that America needs to lead 
the way on issues like this.
    And today, of course we face an enormous challenge and that 
challenge is that Christians in the Middle East in particular 
are being targeted for extinction.
    They are targeted for genocide and we know that during the 
Communist era that the Communists who we help defeat wanted an 
atheist dictatorship and are responsible for murdering millions 
of people, but of all faiths, I might add.
    But today, we have the threat of our generation is to cope 
with the rise of radical Islamic terrorism which is targeting 
Christians in the Middle East for extinction.
    Unless we act, those people who represent a culture, a 
large population of people who worship God, will be wiped out. 
Genocide will be successful.
    Now, we have some challenges with Muslims, like in Burma 
and elsewhere. Muslims are being denied their rights. We need 
to acknowledge that.
    But we need to tell the Muslim world without hesitation 
that this fight with Christianity to the point that they are 
exterminating Christians in Syria and elsewhere, the church--
when Morsi was in charge there in Egypt they were burning down 
Catholic churches--this has got to stop. I have a piece of 
legislation I would like to work with you, Mr. Chairman, on. I 
have one that is a sense of the House that the Christian 
community in the Middle East are targets of genocide and that 
our immigration policy from that part of the world should put 
anyone who is a target of genocide at the top of the list of 
priorities of being admitted to the United States.
    And that's the sense of the House. I am currently working 
on a resolution that would actually change the basic law--
immigration law to reflect that priority.
    If people are targeted for extermination, targeted for 
genocide, we should make them a priority to offer the safe 
haven of the United States, which we are so proud of, that we 
have been the shining light and the refuge to the world.
    Thank you very much, Mr. Chairman.
    Mr. Smith. Thank you very much, Chairman Rohrabacher, and 
just for the record, thank you for all of your leadership going 
back to your days as a speechwriter for Ronald Reagan.
    Just last week, we met with Prime Minister Sharif from 
Pakistan and I followed you, but you led very, very 
effectively, raising issues of religious persecution and 
blasphemy laws and the like and I want to thank you for that 
leadership.
    I would like to now yield to Dan Donovan, who is the former 
district attorney for Staten Island and now a Member of 
Congress and a welcome member of this subcommittee.
    Mr. Donovan. Thank you very much, Mr. Chairman, and to show 
you how smart my mother and father raised me I am not going to 
speak after somebody who wrote speeches for President Reagan.
    I am very interested in hearing the witnesses' testimony so 
I will yield my time until further into the proceedings.
    Thank you, sir.
    Mr. Smith. Thank you, Mr. Donovan.
    I would like to now welcome our very distinguished first 
witness, Rabbi David Saperstein, who is Ambassador-at-Large for 
International Religious Freedom. He was confirmed by the Senate 
on December 12, 2014, sworn in, and assumed his duties on 
January 6 of this year.
    Ambassador Saperstein previously served for 40 years as the 
director of the Religious Action Center of Reform Judaism, a 
rabbi and an attorney for 35 years.
    Rabbi Saperstein taught seminars in First Amendment church-
state law and in Jewish Law at Georgetown University Law 
Center. He has served on the boards of numerous national 
organizations including the NAACP.
    In 1999, Ambassador Saperstein served as the first chair of 
the U.S. Commission on International Religious Freedom and he 
has been a great friend of this subcommittee on human rights, 
to this chairman and many of us in the House and Senate and I 
want to thank him for his leadership and yield the floor to 
him.

 STATEMENT OF THE HONORABLE DAVID N. SAPERSTEIN, AMBASSADOR-AT-
 LARGE FOR INTERNATIONAL RELIGIOUS FREEDOM, U.S. DEPARTMENT OF 
                             STATE

    Ambassador Saperstein. Well, thank you, Mr. Chairman.
    I am honored to be here, Mr. Cicilline, Mr. Donovan, Mr. 
Rohrabacher, and my compliments to Ranking Member Bass for the 
extraordinary work she has done as well.
    I am honored to appear before you today on International 
Religious Freedom Day and the 17th anniversary of the IRF Act 
here.
    Mr. Chairman, you did play--and everyone should know it--an 
extraordinary role in the passage of that and in urging its 
effective implementation and empowering the effective 
implementation in all these years.
    It has been an honor to have had the opportunity to work 
with you over these years. It is a connection I cherish deeply. 
The law has had a significant impact on the way religious 
freedom is viewed, not only in the United States but around the 
world.
    In far too many countries people face the kind of daunting, 
alarming, growing challenges you have all so articulately 
described.
    In countries with proud traditions of multi-faith 
cooperation, often for centuries, where positive coexistence 
was once the norm, we witness growing numbers of religious 
minorities being driven out of their historic homeland and in 
too many countries prisoners of conscience suffer cruel 
punishment and torture for their religious beliefs and 
practices.
    Now, in our report this year there are several key trends I 
would like to lift up and highlight. First is the abhorrent 
acts of terror committed by those who falsely claim the mantle 
of religion to justify their wanton destruction. The action of 
non-state actors in this regard is the fastest growing 
challenge to religious freedom worldwide.
    In Iraq and Syria, ISIL has sought to eliminate anyone 
assessed as deviating from its own violent and destructive 
interpretation of Islam.
    The group has displaced over 1 million from their homes 
based solely on their religion or opposition to ISIL's 
interpretations, be they Sunni or Shi'a. Shi'a were targeted by 
ISIL. Christians and Yazidis were also targeted by ISIL or 
anyone of the many other ethno-religious groups for whom Iraq 
and Syria are home and they are suffering greatly--the 
Turkmens, Sabean Mandaean, the Kaka'is, the Shabaks and the 
others. Their victim stories are deeply troubling.
    When I was in Iraq, the first trip that I took as the 
Ambassador-at-Large for International Religious Freedom, I 
heard the story of an 18-year-old Yazidi woman from Mosul whom 
ISIL fighters kidnapped and raped.
    I heard this from members of her village, her family. She 
was then taken to Kocho village near Sinjar Mountain where the 
fighters separated out the village's men and boys over 12 years 
old, and as she watched helplessly, lined them up next to 
shallow ditches and shot them all. After a while, her cell 
phone stopped working.
    We do not know this poor woman's ultimate fate. What we do 
know is that that same story has replayed itself countless 
numbers of times with other victims.
    We talk about the numbers, but every one of those numbers 
is a human being. Every one of those numbers represents the 
most horrific suffering that we can imagine.
    We continue to see the negative impacts, secondly, of 
blasphemy and apostasy laws in countries including Pakistan, 
Saudi Arabia, Egypt, and Sudan.
    Such laws have been used in some countries as a pretext to 
justify violence in the name of religion, which can lead to 
false claims of blasphemy, creating an atmosphere of impunity 
for those in social hostilities who choose to resort to 
violence.
    Repressive governments routinely subject their citizens, 
third, to violence, detention, discrimination, undue 
surveillance for simply exercising their faith or identifying 
with the religious community. We see this dramatized by those 
countless number of prisoners of conscience and we are deeply 
committed to seeing them free everywhere in the world.
    In China, members of unregistered religious and spiritual 
groups, their advocates including Falun Gong, the house 
churches, continue to face widespread harassment, detention and 
imprisonment.
    This reality has only been exacerbated by the growing 
crackdown on human rights lawyers in China including those 
seeking to work within China's legal system to enhance 
religious freedom such as human rights lawyer Zhang Kai who was 
arrested just before he and a group of other religious and 
human rights activists were to meet with me on my trip.
    Many governments have also used the guise of confronting 
terrorism or violent extremism to justify repression of 
religious groups, nonviolent religious activities or imposition 
of broad restrictions on religious life.
    Chinese officials have increased controls on Uyghur 
Muslims' peaceful religious expression and practice, including 
reported instances of restricting the ability to fast during 
Ramadan, banning beards and head scarves. Tibetan Buddhists 
face government interference under the cause of combatting 
separatism.
    Societal violence and discrimination continue to shape the 
government's vital role in protecting religious freedom.
    Even though these are not actions facilitated by the 
government, governments are responsible under international law 
to take appropriate action to ameliorate the conditions that 
lead to such violence and protect harassed minority 
communities.
    And as you indicated, even in Europe many governments are 
struggling to cope with the aftermath of terror attacks such as 
those in France, Belgium, and Denmark, and at the same time 
hundreds of thousands of Syrians, Afghans, Iraqis, others have 
fled into Europe in the past months.
    We urge governments to uphold their obligations to protect 
the human rights of refugees and migrants in their countries 
and take steps to prevent them from facing official harassment 
and discrimination on account of their religion.
    We are deeply inspired by the works of countless religious 
communities, civil society groups, and individuals around the 
world who hold their governments accountable for international 
commitments to protect freedom of religion and belief.
    This remains the driving force behind our work. During my 
confirmation last year, I described several key goals. We have 
made progress on many of them in no small measure thanks to the 
support on Capitol Hill.
    First, we have been working successfully to build 
partnerships with other nations to advance religious freedom 
together since these global challenges require a global 
response.
    With the leadership of my good friend, Canadian Ambassador 
for Religious Freedom Bennett, we have forged the International 
Governmental Contact Group on Freedom of Religion or Belief, 
drawing from every hemisphere, from countries with different 
majority religious traditions to bring together nations, to 
devise strategies to promote and protect religious freedom for 
all.
    And this parallels parliamentary network help, which our 
U.S. Commission on International Religious Freedom has played 
such an important role in helping to shape.
    Second, we have strengthened significantly our programmatic 
work, an often overlooked but vital area of our work. Through 
the Human Rights and Democracy Fund and other funding sources, 
the State Department supports an ever wider range of programs 
that have a direct impact on international religious freedom, 
countering intolerance, combatting anti-Semitism, increasing 
public awareness, training civil society and government 
officials, strengthening the capacity of religious leaders to 
promote interfaith cooperation, empowering religious minorities 
to participate in political life, and combatting religiously 
motivated discrimination and violence.
    Third, we have strengthened our focus on religious minority 
communities under siege. The Obama administration has appointed 
Knox Thames as our Special Advisor for Religious Minorities in 
the Near East and South/Central Asia.
    We have spoken out frequently about what it would take to 
allow minority communities displaced by violence to return 
home, and Special Advisor Thames is actively focusing on 
coordinating with government-wide efforts in this regard.
    Fourth, we are building our office's capacity to advance 
religious freedom worldwide. The Department of State has 
significantly increased the staffing of our office, allowing us 
to expand ongoing work and devote staff to--not just for 
geographical focus to monitor countries across the globe but to 
focus on thematic issues like the relationship between 
religious freedom, countering violent extremism, the negative 
effects of blasphemy and apostasy laws, intersection of women's 
equality and religious freedom.
    This has helped us engage every segment of the State 
Department and of the administration and integrated religious 
freedom into our Nation's statecraft in areas far beyond just 
religious freedom itself.
    And fifth, we have maintained a very close cooperation with 
the U.S. Commission on International Religious Freedom 
represented here by its chair. He served a very exemplary role 
as chair prior to this.
    Professor Robert George is one of this country's great 
public intellectuals and it is always an honor and a pleasure 
to work closely with him.
    In conclusion, Mr. Chairman, we continue to face these 
daunting, alarming, growing challenges. We are building new 
partnerships, investing in new programs, increasing our staff, 
coordinating with USCIRF.
    We face this task with continued vigor and resolve to 
ensure that everyone has a right to live in accordance with the 
dictates of his or her conscience.
    I thank you for the opportunity to testify and I look 
forward to your questions.
    [The prepared statement of Ambassador Saperstein follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         
                              ----------                              

    Mr. Smith. Ambassador Saperstein, thank you very much for 
your testimony, and because we do have votes that may come as 
early as 1:30 to 1:45, I will lay out my questions and ask you 
to answer them and ask others so that we don't--we can get to 
Professor George in a timely fashion.
    Just a couple of questions to start off with. There is a 
perception, as you know, among many--the 2013 GAO report cited 
this concern as well--that religious freedom is not a high 
priority for this administration.
    Now, in a revelation of priorities, as a matter of fact, 
Robbie George did testify a couple of times before our 
subcommittee at one point when--I mean, you are a breath of 
fresh air. We are so glad you sit in this very strategic 
position.
    But the problem has been for almost 3 years nobody sat in 
your position and CPC designations were not forthcoming even 
though the act prescribed an annual designation.
    They simply didn't happen and they did not happen so a lot 
of countries that should have been put on notice and held to 
account were not.
    And I am wondering in the system how--I mean, do you meet 
with Secretary Kerry? Does he take your phone calls? Is there 
an integration of religious freedom and religious persecution 
issues in all aspects?
    Does DoD do the same thing? Certainly, whether it be 
AFRICOM or any of our other efforts, I mean, many of our 
soldiers and service members are as much diplomats as they are 
warriors and I am wondering how integrated that is with your 
efforts.
    I know you have travelled--when you go to a country you 
have an impact. But all the rest of the government it is a 
whole of government approach, it would seem to me.
    Can you speak to that issue of whether or not it is? Some 
of the designations that USCIRF has--and I and others have 
called for repeatedly are Vietnam and Pakistan.
    We just met, as I mentioned, with the Prime Minister of 
Pakistan a few days ago talking about blasphemy laws. I 
remember when the minister was gunned down in cold blood on his 
motorcycle some years ago, Shahbaz Bhatti.
    I was with you. We were in mourning over his loss. Pakistan 
has serious problems and Vietnam got an upgrade in order to get 
WTO and to get MFN or PNTR as it is now called. I opposed it. 
It said let the record speak for itself.
    I went to Vietnam, met with a lot of people. A lot of those 
that I met with are now in jail now, again, like Father Ly, who 
unfortunately had another show trial, as you know so well.
    I mean, Vietnam ought to be a CPC. What we do in terms of 
implementing and sanctioning is purely up to the 
administration.
    But the designation itself ought to be done without any 
other consideration of a foreign policy. And maybe if you would 
speak to the pattern. I wrote the Trafficking Victims 
Protection Act. We have a hearing in this subcommittee on 
November 4th.
    John Shattuck, who was the Assistant Secretary back in the 
Clinton administration for human rights, testified right where 
you sit against Frank Wolf's bill, against it on the record. 
You know, it is baffling to look back--he was against it.
    I have often thought there are a whole lot of people who 
still haven't said this is something we need to work on within 
State this patterns suggests that.
    On the trafficking bill, three countries at least--
Malaysia, Cuba, and China didn't get Tier 3, egregious violator 
of trafficking, even though the record is absolutely clear. 
Malaysia was because of the TPP, Cuba because of our 
rapprochement that we have engaged in, and China because we 
don't want to offend China, which is ludicrous.
    On the child abduction law that I wrote, the Sean and David 
Goldman International Child Abduction Prevention and Return 
Act, Japan mysteriously dropped off even though there are 50 
cases because of ``other considerations.''
    And I am wondering from your perch, and I don't want to get 
you fired, but do you see that there is a reluctance to really 
engage these issues? And Vietnam jumps off the page. They need 
our help.
    You know, China threatens them as never before and it seems 
that there is an effort to try to build bridges there. Calling 
them out on their persecutions seems to me to be a very 
important thing to do.
    So this pattern troubles me when it comes to these 
fundamental human rights issues and the clear points. Again, 
even on China, as you know, China is in a race to the bottom 
with North Korea when it comes to human rights.
    We just issued--I chair the Congressional-Executive 
Commission on China--we just put out our annual report on 
October 8th. It is chilling horrifying reading on every human 
rights point including religious persecution.
    Even the patriotic church and the Three-Self Movement are 
being attacked now and they were supposed to be protected by 
the government.
    So if you could speak to some of those issues I would 
appreciate it.
    Ambassador Saperstein. All right. Let me take a run at some 
of these as quickly as I can.
    First, the integration issue. It used to be a fight to talk 
with the government over the last 15 years about how connected 
religious freedom was with so many other concerns we have had. 
I was really heartened when I arrived to find it is no longer a 
fight here.
    It is absolutely clear to everyone you cannot deal with 
combatting violent extremism, with countering terrorism, if you 
can have sectarian violence in a country, if you have large 
numbers of people shut out of participation in a country 
because of what their religious beliefs are.
    It is absolutely clear you cannot build democracies, you 
cannot have effective conflict resolution when you have groups 
of people who have to choose between abiding by the laws of the 
country and living out their lives in accordance with their 
religious conscience where, again, they don't feel they can 
affirm their lives in that country by following the system and 
when that happens they are filled with the kind of frustration 
and despair that makes them fertile field for extremists.
    This is widely understood now in the State Department. In 
the work of my colleague, Shaun Casey, on the religion and 
global affairs effort that virtually doubles the number of 
people at the State Department working on the broader religious 
issues here, I have a staff of, depending on how you count 
them, 20, 25 people with part-time people who help write the 
report, even a little larger than that. Shaun has a staff that 
size--together it gives us a formidable ability to really 
continue to work closely with all the different arms.
    Almost all of them are really appreciative. Not just open 
but appreciative and they recognize you have to deal with these 
issues.
    It is a different day today. Is it still clumsy for many 
people? Yes. These are very hard issues to deal with in an 
effective manner.
    I also have to say that I have been struck by, in every 
country I have been to, and I presume it has been your 
experience as well in your travels, how robust is the 
engagement of the Embassies on an ongoing basis with the 
religious communities.
    When they pulled together their religious leaders they were 
greeted with open arms. They were greeted with, you know, 
people that they really knew and knew them. I think that is one 
of the great contributions with what you did with the report.
    Think about it. Every year 193 Embassies or councils have 
to assign staff to draft the report. They have to be in touch 
with beleaguered religious community or oppressed religious 
community.
    When I travelled in 2000 here that was the most common 
refrain I had--we now have somebody to talk to, we never had 
anyone to talk to, we know someone in the Embassy that we can 
talk to.
    Over the years, well over 1,000 Foreign Service Officers 
have had the immerse themselves in this kind of work. They are 
all over the place now.
    So we find there is robust interaction in the Embassies, 
far beyond what I imagined and I was aware of, before I took 
this position. I find that to be really heartening as well 
here.
    Let me move on to your question about access and influence. 
I was given a choice of several different variants of how this 
might be arranged.
    I consulted with some very good people, Congressman Wolf, a 
little bit with yourself, with Tom Farr, others on this. They 
promised me before I took this job I would have as much access 
as I want.
    I remember Representative Fortenberry asking the Secretary 
of State this question and he said, you know, I had to work for 
months to work it out for him to come on board--do you think I 
did that where he is not going to have access.
    There has not been a time that I have reached out to the 
Secretary's staff, to the Secretary, to the other top staff 
where I think within hours I have gotten a response, almost 
always appreciating--affirming what I asked for and providing 
what I requested.
    Considering how busy they are, the fact that these 
responses come at the highest levels quickly and so 
encouragingly and supportive to me kind of speaks volumes about 
that.
    They really have lived up to that promise. There is not a 
single time that I have been shut out where I wanted access.
    I have had the time both formally and often step-asides 
with the Secretary where he says what is going on here--bring 
me up to speed here--what problems do you have here where I 
have been able to share those with him.
    So I have been very heartened and encouraged by that. I 
agree with you about the CPCs. I was clear about that in my 
testimony.
    I am pushing very hard to revamp the way that we do this. I 
do not think we are going to have this problem in the future 
here and I think within a short period of time that will become 
clear.
    Let me get into some of the individual countries. It is 
really hard for me on the wonderful work on trafficking which, 
as you know, in my prior life here the coalition met on this 
bill, met in my offices here.
    You know how strongly I feel about the bill and how closely 
we worked on it and the same with your child abduction law. It 
is really not appropriate for me to answer some of these other 
questions.
    Obviously, everyone in government should always abide by 
what the law says in terms of implementing these----
    Mr. Smith. If you could yield for 1 second. The concern is 
that there is a pattern. With Malaysia, it is the TPP and there 
is no way that Malaysia could be a Tier 3 country and go 
forward with the TPP.
    Cuba, we are making nice in Cuba even though you read the 
trafficking narrative in the TIP Report and it is inescapable. 
It is a Tier 3 country, it is horrible, and yet they got a 
country----
    Ambassador Saperstein. I mean, I need to leave it, Mr. 
Chairman----
    Mr. Smith. So Vietnam ought to be----
    Ambassador Saperstein. I need to leave it to you with your 
great experience and this subcommittee with its great 
experience to make the judgements about patterns.
    May I just offer one comment about it, however? It is 
absolutely true there are problems that emerge over the years. 
They come in ebbs and flows.
    They change over the years where things are not as 
implemented as effectively as we might hope. They remain the 
exceptions.
    We deal year after year with scores and scores of 
countries, some of whom we have deep relations with, we depend 
on for important interests, where we call it as it was intended 
to be. We name those countries and you focus on the times that 
it has gone off base. I understand that.
    I would just offer that in the main, all these things are 
working and they are evoking change here and, I mean, I 
remember in the very first year of the trafficking report when 
Israel was named, many people said ``a close ally,'' 
``shouldn't do,'' and then within a year they had passed a 
series of laws mainly that immediately took them out of it.
    Mr. Smith. It was South Korea.
    Ambassador Saperstein. You and I could name a score of 
times off the top of our heads where this really has worked. So 
I leave it to you to draw the question about the problematic 
patterns.
    But I think we ought to really celebrate also the patterns 
that show enormous impact that these pieces of legislation you 
have helped draft have had to beleaguered people all across the 
globe.
    Let me just say a word about particularly Vietnam here. I 
have found over the years that there are often not things that 
are right or wrong but different truths that are in tension 
with each other.
    So your picture of Vietnam I cannot argue with. You know 
from our report I agree with everything that you are saying.
    There are other parts of the picture, however, that I saw 
when I was there and we heard from different religious leaders, 
and as you know I met with Father Ly in prison.
    He asked me to send his warmest regards to you and to 
express how much he appreciates the staunch support that you 
have given him. We visited other religious prisoners as well.
    If you visit Vietnam today and compare it to when I was 
there last, a number of years ago, or to people who really know 
the country well and your own visits 15 years ago, wherever I 
travelled, the churches are bursting at the seams in small 
rural areas of the country, in the cities.
    The churches are filled there. There is a vibrancy and 
power, often filled with young families, that is truly 
inspiring against all of these restrictions, in the face of all 
of these restrictions.
    They at least allow for this kind of life to happen and we 
have found that these restrictions that you have talked about 
are imposed very unevenly around the country.
    There are many areas where the hand of government is much 
lighter and in those areas the religious communities are 
organizing. They contribute to the society, are able to provide 
social services. There are extraordinary things that are going 
on.
    But you go to another city and they crack down all the time 
and throw in jail the unregistered churches. In another city 
they turned a blind eye so long as it is not flagrant.
    That wouldn't have happened 15 years ago. There was no 
room, no space for any of that. So we are focused right now on 
using TPP where there has been an openness for improvements on 
human rights in several areas, on labor law, on disability 
rights, and other things that we have been engaged with Vietnam 
on, where TPP has been a lever to get them to sign 
international accords and treaties they have never signed 
before to reform some of the rule of law issues that we have 
been pushing on for years.
    We are pushing very hard on religious freedom. I hope 
everyone knows that Vietnam is now undertaking a complete 
revision of their religion law.
    On the one hand, there are parts of it that are positive 
here. It would add provisions allowing for religious training 
facilities, the explicit right for religious institutions to 
raise money for the first time.
    It would permit clergy to organize religious ceremonies 
more extensively than it does. It gives prisoners religious 
rights that it never gave before.
    On the other hand, in the main, it didn't make the reforms 
that you have been calling for and we have been calling for, 
the same regulatory system that controls every aspect of life--
who can go to seminary, what they can teach, who can be 
appointed as a leader of a church.
    If you don't have the right to appoint your own clergy, how 
can you really have religious freedom? I hear the requirement 
to report everything you are planning to do for a year with 
every deviance from it having to be approved by the government.
    We have offered a number of suggestions of how to push 
that. We have done that in consultation with the religious 
leadership of Vietnam.
    We really hope that they will make improvements that will 
change it from permission to notification. If they want to keep 
some awareness and control, at least let the religious 
communities notify them what they are doing and move ahead.
    They ought to have a restriction that says if they ask for 
approval for something, if it doesn't come by the time the law 
says, that it becomes a stamp of approval.
    Otherwise, people wait for years and years for permission 
to do things, and to ease the restrictions on the unregistered 
churches so long as they don't violate some other kind of law.
    So we are pushing very hard. One of the big problems is 
some of the restrictions are written so vaguely it allows the 
government to crack down on whatever it wants to do. You can't 
have a legal system that does that.
    It can't have over-broad vague rules controlling religious 
life this way. So we are working to support the religious 
community and the NGO community that are pushing hard for these 
reforms.
    Let us see what happens on this here. It is a country of 
key priority for us here and we will continue to keep our 
focus.
    Mr. Smith. I thank you.
    Before I yield to Mr. Cicilline, I would just note 
immediately prior to the bilateral trade agreement, Vietnam was 
taken off the list by the previous administration so there is 
no partisan effort here and, very quickly, the day after they 
won that benefit there was a snap back and the people who had 
signed Bloc 8406, the human rights manifesto, many of the 
religious freedom people that I met with on my last trip there, 
which was right before the bilateral trade agreement were all 
thrown into jail again.
    And so it is the lack of durability and CPC, I would 
respectfully say, doesn't mean you have to prescribe penalties. 
You have the option.
    Ambassador Saperstein. Yes.
    Mr. Smith. But the designation is just a snapshot--what are 
they doing--and it seems to me that they have not made the 
grade. But that is--we will agree to disagree.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman, and thank you, 
Ambassador, for your testimony.
    I have three subjects that I would like to cover and I know 
I have other colleagues that are here so I will try to move 
them quickly.
    You made reference to the sort of, I think, some sense that 
you are revamping or revising the CPC designation process. If 
you could speak to that.
    I mean, I do think there is some evidence of some 
unevenness in this process and, certainly, USCIRF has made 
recommendations about a greater number of countries being 
designated and I recognize there are waivers that are granted.
    But I would also like to hear your thoughts on the impact 
of waivers, particularly waivers which sometimes seem to be 
permanent.
    The whole notion behind this and it has obviously worked 
successfully is to identify countries of concern to raise the 
profile of the issue and as a consequence compel them to change 
their behavior or take action so the even and predictable way 
in which this is done in the sense that it is being done 
annually, as at least the legislation suggests, and then the 
impact of waivers. So that is one.
    The second thing is if you would just speak to what I think 
is a growing concern for many of us, and that is the action of 
non-state actors who very often are some of the worst violators 
of religious freedom and, obviously, in places sometimes where 
government is really nonexistent or functioning government is 
nonexistent, what are the tools available for us to impact that 
situation and should we consider being able to designate a 
region even if it doesn't have an actual government responsible 
as a place of concern, which I am not sure the current statute 
provides?
    And, finally, what are the most effective tools that you 
have and what more can Congress do to enhance the objective of 
your responsibilities and what are the most effective ways to 
do it?
    That may include some of the recommendations that were made 
in the International Religious Freedom Report I just released. 
So if you could just address those three I would appreciate it.
    Ambassador Saperstein. Yes. Very quickly, there is an 
agreement that we need to kind of standardize and regularize 
the CPC process. We haven't quite completed that yet.
    I can't comment on the internal deliberations but we are 
trying to move ahead in a way that I think you will feel good 
about when we are able to talk a little more openly about it.
    It is part of the process of the CPC determinations. We not 
only provide internal guidance to all of those in the decision-
making process and my office in DRL, through all the regional 
desks all the way up to the Secretary, but also the analyses of 
NGOs, of religious communities, and, most particularly, of 
USCIRF here.
    We take the Commission's recommendations of what the CPCs 
ought to be. They are seen by everyone including the 
argumentation for it as part of our process and I just want 
people to know about that.
    In terms of the impact of when waivers are given, the 
sanctions are only one tool that we have in our programmatic 
work in which we strengthen civil society and religious groups 
are able to fight for their rights more effectively, where we 
move together with international cooperation as we strengthen 
these international arms to work together, to focus so that 
countries that have better relations with some countries we may 
not, can be effective in terms of fighting for the expansion of 
human rights and religious freedom.
    All of these are weapons that are tools, that are available 
to us to do that work. We have this panoply of tools and when 
sanctions aren't going to be imposed because of national 
interests, national security purposes, then we use these other 
tools as robustly as we possibly can.
    Nonstate actors are a major challenge for us. We have very 
little control and leverage with them. They are not in 
diplomatic relations with us.
    We, obviously, in countries like Iraq are committed to 
strengthening the governments there to fight against these 
groups. The same with those who face Boko Haram, who face al-
Shabaab.
    We are working with the governments to try and use the best 
techniques that we can train them in to provide resources for 
them, to learn from best practices elsewhere, to help 
coordinate efforts of countries in the surrounding areas 
together to try and be more effective in the work that we do on 
those.
    But this is an evolving crisis that we will be spending 
more and more time on. I have been encouraged to see how in the 
State Department, and I know in our intelligence agencies and 
defense world, we really have mobilized around these issues.
    We are in touch on an ongoing basis with the defense 
apparatus, particularly vis-a-vis the Near East, Iraq and 
Syria, and with the intelligence agencies in terms of working 
together on this.
    I think you will be very heartened to know the extent of 
the cooperation on the sharing of our relevant perspectives and 
sharing of information on this.
    What more? I mean, I think there are ideas you will have to 
take a look and evaluate based on what we have heard here in 
the Frank Wolf bill here.
    There are other bills around. There are some good ideas in 
those and you should, obviously, take a look at them.
    Obviously, any time resources through the State Department 
are expanded it is helpful to us. I want to say what I said 
over and over again every time I have testified. There is 
extraordinary work being done at the State Department.
    There are not enough resources in some of the most vital 
areas that we have. When we are forced to take from one good 
area to another good area including to religious freedom, it 
really hurts our overall mission.
    So where there are additional resources putting in of the 
work that you think is most helpful it really makes a 
difference in our ability to do it and I am feeling that by the 
funds that the Department was able to free up to allow us to 
significantly expand our staff that will really significantly 
strengthen our work.
    Mr. Cicilline. Okay. Thank you, Mr. Ambassador. I yield 
back, Mr. Chairman.
    Mr. Smith. Chairman Rohrabacher.
    Mr. Rohrabacher. Thank you very much. Just to reiterate, I 
believe that at this particular moment when we are discussing 
religious freedom in the world that the overriding issue and 
attention needs to be on the Christians in the Middle East who 
are literally targeted for genocide. And we can see that and we 
need to deal with that is my priority.
    But in terms of the broader scope of religious freedom, 
with the fall of Communism and basically Marxism and Leninism 
was an atheist philosophy of trying to superimpose an atheist 
dictatorship on the world and they killed many believers of all 
faiths and we can be happy that that part of the human history 
has been, as Ronald Reagan said, put into the ash heap of 
history.
    And there has been progress made in Vietnam but there is a 
long way to go, as you expressed. The very laws that are 
applicable to all other elements of a controlled society are 
applied to them.
    Thank you for that insight. I think it is important for us 
to realize those controls are being used by people who 
fundamentally are atheists of the Communist nature who now are 
in power and they have this bias against--the guys in power 
have this bias against Christians because they were part of the 
Communist tide that was going to sweep the world.
    But let me ask you about Russia. That was the heart of it 
and it is where it started. I have been to Russia several times 
in the last couple years and I have been meeting with religious 
leaders every time and they are reporting to me that they have 
relative freedom of religion on Russia now. What would your 
reaction to that be?
    Ambassador Saperstein. Like many countries around the 
globe, it is a mixed story. For those that are recognized in 
Russia, there is a good modicum of ability to live their lives 
in accordance with their freedom.
    But in the name of anti-terrorism and anti-separatism, the 
Russian Government also has cracked down on some Muslims, some 
minority groups and we think--we understand legitimate concerns 
about terrorism.
    We support countries dealing with them. But when they crack 
down by cracking down on peaceful religious practice as kind of 
an inoculation against letting anything flourish that might 
lead down a path that they fear toward this, it really becomes 
problematic.
    Mr. Rohrabacher. It is a very difficult line to draw, what 
you are talking about----
    Ambassador Saperstein. It is.
    Mr. Rohrabacher [continuing]. Because in Russia they--even, 
I mean, as I say, I have met with religious leaders. My last 
several visits I--and the Mormons--even the Mormons said oh, 
no, we are fine--we can knock on doors and seek converts and 
the only group that was complaining were the Scientologists, 
which, of course, is a question in Germany as well.
    But in terms of trying to deal with the Islamic threat at a 
time, we realize it is very easy to see our friends in Saudi 
Arabia have been sponsoring mosques in order to promote radical 
Islam not--and changing the society and not just to get 
together to help people worship God together.
    Where you draw that line of how you deal with people who 
are trying to manipulate the Islamic faith toward a political 
radical end, that is a very difficult line to draw.
    Ambassador Saperstein. We agree it is a difficult line to 
draw and, clearly, one of the tests ought to be where peaceful 
people are acting peaceably they ought to be allowed to----
    Mr. Rohrabacher. Sure.
    Ambassador Saperstein [continuing]. Live in accordance with 
their religious conscience.
    Mr. Rohrabacher. Correct.
    Ambassador Saperstein. Where they are violating laws here 
that have to do with criminal activity and terrorist activity 
then those should be addressed directly about it.
    We have found in a number of countries including Russia 
that is an over-broad crackdown on segments of the community 
and they also have a registration process that can be tough.
    There are smaller groups--Jehovah's Witnesses, other 
groups----
    Mr. Rohrabacher. Right.
    Ambassador Saperstein [continuing]. Who really are feeling 
enormous pressure----
    Mr. Rohrabacher. That was the second group that was----
    Ambassador Saperstein [continuing]. In this regard as well. 
So some of the smaller groups are really having problems.
    You know, the same thing--if you are talking about those 
categories in countries and China. China still only recognizes 
five major faiths. If you are not one of those faiths, you risk 
going to jail if you try to function openly there.
    Mr. Rohrabacher. I was just about to bring up China. So 
thank you for that analysis. One last note on China--yes, they 
have to be part of those five recognized faiths.
    But do we not also still see a massive repression of, for 
example, the Falun Gong in China? Wouldn't that be under the 
umbrella of a religious freedom?
    Ambassador Saperstein. I mean, it is why I named it in my 
testimony here. There are still thousands of Falun Gong 
imprisoned including mostly their leadership.
    Many of them are in prisons where we do not know where they 
are and their families and their lawyers can't contact. There 
are many reported stories of torture and deaths in prison here 
but we are seeing similar kinds of repression vis-a-vis the 
Tibetan Buddhists and the Uyghur Muslims. And as I said, as in 
Vietnam, you know, it is uneven around the country.
    There are some places the government hand is lighter and 
you see religious publishing houses and social services and 
there are other places and unregistered churches able to 
function, but in the main in China, unregistered churches are 
always in danger of being arrested and we have this 
extraordinary situation in Wenzhou where one of the deepest 
concentrations of Christians in one area in China where they 
are pulling down crosses over about 1,500 churches and 
demolishing churches in the name of urban reclamation and they 
talk about it being only a small percentage of all the 
buildings.
    But at 1,500 out of 6,000 churches there is 25 percent of 
all the churches that have been affected by this. And it is a 
clear effort to kind of repress the visible presence of the 
growing resurgence of religious life in China.
    Mr. Rohrabacher. Well, thank you very much for giving us 
that insight of that type of repression.
    Mr. Smith. Thank you, Chairman Rohrabacher.
    Curt Clawson, the gentleman from Florida.
    Mr. Clawson. Thank you for coming in and thank you for your 
service to our country.
    I got two real quick questions so if you will--I know Mark 
wants to go so we will go fast. The first one is really easy.
    We read the information. We don't see anything about 
Mormons and, you know, Mormons they can get mocked on, you 
know, on Broadway and it doesn't matter.
    So I am just curious no one ever mentions somewhere, I 
think, millions of Mormons around the world. You never stumble 
across it or off the radar, or what is the story there?
    It wasn't a trick question. I am not----
    Ambassador Saperstein. No, no, no.
    Mr. Clawson. You know, I am just curious because of my own 
ancestry.
    Ambassador Saperstein. I respect that.
    Mr. Clawson. Because if you don't know, you don't know. You 
can let me know another time. It is okay.
    Ambassador Saperstein. Let me--I am actually--I am pausing 
because I want to say something--I want to phrase what I am 
saying complimentary about the Mormon Church.
    Because of their practice of young men and some women 
voluntarily going on mission, they have worked out more 
successfully than most religious groups.
    A modus operandi to work with the powers that be as 
effectively or more effectively than any other religious group 
that I can--that I can think of, they tend to run into problems 
there for--they try to play by whatever the rules are in a 
different country and they are not as likely to push the 
envelope.
    So there are a score of countries I could name that do not 
allow any kind of religious expression other than the one that 
is a state-endorsed religious expression.
    Disproportionately, these are Muslim countries in which a 
Mormon would be arrested if they went around doing the normal 
missionizing that they do, and since they don't tend to push 
the envelope and test this but recognize that that is not a 
country at this point they are able to function in----
    Mr. Clawson. Right.
    Ambassador Saperstein [continuing]. They tend to run into 
this. That is why, of course----
    Mr. Clawson. Right. No, no. I mean, I know. Render unto 
Caesar what is Caesar's and render under the Lord what is the 
Lord's.
    Ambassador Saperstein. Indeed. So they----
    Mr. Clawson. It is a good approach irrespective. Let me ask 
one other question real briefly.
    I have read the material. I see you speaking. I look at the 
world in terms of global trade and I struggle--and I like what 
you are doing--I like the program because people ought to be 
able to go to church and kneel down and pray to whatever god.
    But it never seems to really impact any trade and therefore 
anybody's bottom line. If you are China, your billions of 
dollars every month to the U.S. through Wal-Mart.
    If you are the oil producers, none of that ever gets 
impacted. Cuba is opening up. It feels like this is a program 
at a big picture level I am saying no one's bottom line with 
respect to trade is ever impacted even though we are the 
world's growth engine.
    So what are we really doing here and what am I missing 
about that? Because all the countries that you mention there 
are a lot of Nike shoes being made in Vietnam and all the toys 
and electronics are coming from China. They are the factory of 
the world.
    And whether they abuse folks' religious freedoms or not 
seems to matter not to the bottom line, which everyone 
respects. Am I missing the big picture completely here or are 
we kind of--it had got to be a frustrating job for you.
    Tell me if I am missing something here because----
    Ambassador Saperstein. You raise two issues. Let me just 
say this because it has been alluded in some of the other 
comments.
    We are all committed to religious freedom and that includes 
not only the right to worship. It includes the right to talk 
about your faith, to change your faith, to proselytize others. 
It includes, as someone said quite appropriately, the right not 
to believe as well. It is a broad right that goes beyond just 
the right to worship.
    Mr. Clawson. Are we moving the needle?
    Ambassador Saperstein. In some countries, we are. In other 
countries, we are not, and we try to do everything we can to 
move the needle by strengthening the ability of religious 
groups to advocate for their rights, to work with civil 
society.
    We try to do it by our direct bilateral relations with 
these countries to improve rule of law issues on that. There 
are some countries we make real progress. Other countries are 
much harder.
    We do use economic levers on this. There are a range of 
countries that are subject to sanctions. Like so, for instance, 
in Iran; it restricts a whole number of religious communities.
    We have lifted one set of sanctions. But all the human 
rights and religious freedom sanctions remain in place and 
nothing under this agreement stops us from imposing more if the 
situation deteriorates even further than it does.
    There is a whole range of countries in which we do apply 
both human rights in general and religious freedom, 
particularly. Restraint sometimes in trade, other financial 
restraints and access to banking here and other things that 
affect either the government or organizations that are involved 
in this violation of human rights or individuals who are 
involved in these rights.
    They are fairly robust and over a long period of time we 
think they are part of the picture of what we can do to change 
the pattern of some of these repressive policies and practices 
that countries have.
    Mr. Clawson. I thank you. I think a lot of us have 
ancestors that were religious freedom migrants.
    Ambassador Saperstein. I can assure you that is true.
    Mr. Clawson. And so it means something to us and therefore 
it means something to folks in other countries that lose one of 
the most cherished rights of all.
    So we appreciate what you are doing. I am frustrated 
sometimes by our lack of economic will. But I certainly have 
nothing but respect and admiration for what you are doing, and 
I yield back.
    Ambassador Saperstein. I really appreciate that. As 
somebody who is part of a religious group that has known this 
kind of oppression time and again century after century.
    We know the price of what happens when good people stand 
idly by and this nation is committed not to repeat that mistake 
that has been made so many times before.
    So thank you.
    Mr. Smith. Thank you, Mr. Clawson. Mark Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    I want to say this as delicately as I possibly can, Mr. 
Ambassador. But listening to your testimony, reconciling it 
with reality or perceived reality is very difficult to do.
    You are saying we are doing extraordinary things. I think 
that was a quote--extraordinary things and making extraordinary 
progress. And yet, when you talk to people on the ground, when 
you talk to others they believe that the State Department 
doesn't make this a priority.
    How would you respond to that criticism?
    Ambassador Saperstein. Yes. I truly don't believe I said 
anything about extraordinary progress. These are daunting----
    Mr. Meadows. To me--to Mr. Cicilline you did. But that is 
okay. I listen very carefully. But go ahead. I will let you 
retract.
    Ambassador Saperstein. So if I said that then, Mr. Meadows, 
I do retract it.
    Human rights is a very daunting agenda today. Everywhere 
across the globe religious freedom is a daunting agenda today 
everywhere across the globe. It is very hard to get traction 
and to change long-ingrained practices and policies----
    Mr. Meadows. So would you----
    Ambassador Saperstein [continuing]. That these countries 
have.
    Mr. Meadows. Would you say that----
    Ambassador Saperstein. That we are doing extraordinary 
things here I am prepared to try and defend to you. I really 
believe that we are.
    A lot of this in countries, the countries that are worst 
countries, we can't talk about openly in terms of the 
programmatic stuff. We are investing large amounts of resources 
to help strengthen those who share our views, those who are the 
victims of these injustices here and----
    Mr. Meadows. So let me--let me interrupt you. I only have a 
limited amount of time. So let me maybe reclarify my question a 
little bit.
    You talked about the use of tools. I think the GAO report 
has cited in 2013 that this was not really a priority for the 
administration. Positions went unfilled. Special envoys were 
not put forth.
    We have heard testimony--I follow this very closely and so 
that is why I am saying trying to reconcile your testimony with 
the myriad of testimony that I have heard before which would 
suggest that it is not a priority. Are you saying that it is?
    Ambassador Saperstein. I am saying that it is. Whatever was 
true up until 2013, certainly from the time that I have come 
on, the administration has lived up to every commitment and 
promise that it made to me and that it has made to the office.
    It has strengthened our work, our ability to work across 
the full range of efforts of this administration and to have 
access at the highest levels with the Defense Department, the 
intelligence agencies, the full range of the State Department. 
It exceeds what I had hoped for.
    Mr. Meadows. That all sounds good but here is my question. 
Some would suggest that the position went unfilled for over a 
year so how could it be a priority?
    Ambassador Saperstein. I am not the one to ask about being 
held accountable to what happened before I came on. You would 
have to ask others.
    Mr. Meadows. All right. So let me go a little bit further 
then because you were talking about TPP and as we have been 
involved in the negotiations with TPP, it seems like religious 
liberty and human rights is a sidebar, not anything that is a--
and you would indicate that it is a priority with regards to 
our negotiation with the TPP deal.
    Is that--is that your testimony here today, that it is 
priority? You know, it is a central focus of our trade 
agreement with these other countries?
    Ambassador Saperstein. Certainly in terms of Vietnam.
    Mr. Meadows. All right. So let me ask you this.
    What message does it send to the world when we change the 
rating of Malaysia without really anything significant 
happening as it relates to human trafficking? What message does 
that send?
    Ambassador Saperstein. Again, that is a question you would 
have to ask the people in the human trafficking office or that 
chain above them.
    Mr. Meadows. Is that not a human rights abuse?
    Ambassador Saperstein. Trafficking?
    Mr. Meadows. Yes.
    Ambassador Saperstein. I devoted a lot of my career to 
addressing that issue. It is a very important human rights 
abuse and the existence of the human trafficking office, the 
existence of the report itself, whatever flaws you may see in 
particular pieces that happened this year is itself testimony 
to the importance that----
    Mr. Meadows. All right. Let us go back to the religious 
liberty aspect then out of the over 750 pages of the proposed 
TPP as we were reviewing it.
    What specific language in there gives you great comfort 
that we are going to address this as a priority as a Nation--
specific language not----
    Ambassador Saperstein. I can't answer that, not----
    Mr. Meadows. Have you read the--have you----
    Ambassador Saperstein. If I can get back to you.
    [The information referred to follows:]
  Written Response Received from the Honorable David N. Saperstein to 
    Question Asked During the Hearing by the Honorable Mark Meadows
    The U.S. Government is fully committed to promoting religious 
freedom. I have been working to build partnerships with other nations 
to advance religious freedom together, traveling to engage many 
governments and international groups to expand the fundamental freedom 
of religion for all. My office supports many programs that counter 
intolerance, train civil society and government officials on legal and 
policy protections for religious freedom, strengthen the capacity of 
religious leaders to promote interfaith cooperation, empower religious 
minorities to participate in political life, and help combat 
religiously motivated discrimination and violence.
    The Trans-Pacific Partnership (TPP) will set high standards and 
create opportunities for further progress on a range of human rights 
reforms. For example, TPP will promote transparency and encourage 
public participation in the rulemaking process, discourage corruption, 
and establish codes of conduct to promote high ethical standards among 
public officials. Increased trade throughout the region will increase 
open exchanges of information on a range of issues.
    In addition, Chapter 19 on labor of TPP requires all TPP Parties to 
adopt and maintain in their laws and practices internationally 
recognized labor rights, including prohibiting discrimination in 
respect to employment and occupation on the basis of religion. The 
Brunei-U.S. Labor Consistency Plan, Section II (D) and the Malaysia-
U.S. Labor Consistency Plan, Section II (A) further detail the 
commitments these governments have made to ensure their law and 
practice meet this obligation. These efforts will help advance human 
rights, including religious freedom.

    Mr. Meadows. Have you read the TPP deal?
    Ambassador Saperstein. I have read the parts of it that 
deal with some of the issues we are talking about. So I only 
know what our face to face negotiations with the Vietnamese 
Government have been like, some of the commitments they have 
made that they have never made before, some of the treaties 
they are signing they have never signed before.
    Is it everything we would want? No. Does it feel like it is 
providing traction to make a difference that will help workers, 
that will help disabled people, that will help minorities 
there? I think it does.
    Mr. Meadows. So you mentioned Iran--and I will close with 
this because I don't ever go anywhere without bringing it up--
what is happening with Pastor Saeed Abedini?
    I mean, I don't know that there is any more of a poster 
face of religious liberty and what it is and what it is not 
other than Pastor Saeed Abedini. And yet our whole political 
capital has been invested and nothing has happened.
    Ambassador Saperstein. We can't control, in the end, what 
countries that are bad actors are going to do in general or on 
any single thing. We can try and influence it. We can use every 
means at our end to try and affect the outcome of these.
    You have seen the release of prisoners of conscience over 
the last years in different countries that have been 
problematic actors, that have been named CPCs in this area.
    So it is not that we are not working on it day in and day 
out to try and get the release of these prisoners of 
conscience. The President has spoken publically about Saeed 
Abedini and met with the family.
    The Secretary has spoken publically about him, met with the 
family. We know there have been reports--it is not a secret--
that on the sidelines in the negotiations on the Iran 
agreement, we were raising this almost every time that there 
was a meeting, every avenue that we have either directly 
ourselves or through intermediaries who have closer relations 
with Iran, we are using to help all of the political prisoners, 
the American citizens there and others who are the prisoners of 
conscience to have them released.
    Mr. Meadows. Well, I will close with this one rhetorical 
question: If $140 billion in sanction relief can't get one 
pastor out of Iran, how much will it take?
    I yield back.
    Mr. Smith. Thank you, Mr. Meadows.
    On the whole issue of double hatting of sanctions and 
indefinite waivers and USCIRF has recommended that you end the 
practices.
    I would add exclamation points to the recommendation to do 
that. With regard to Saeed Abedini, we have had hearings in 
this subcommittee, I have chaired them.
    We have heard from Naghmeh who was deeply disappointed with 
the State Department, not you, the State Department. 
Originally, she said they told her, ``There is nothing we can 
do.'' She was aghast at that, couldn't believe it.
    Frank Wolf actually convened a Lantos Commission hearing. 
The first one we had, and Secretary Kerry did respond and we 
were all grateful for that, but I asked the Secretary again, 
sitting right where you are sitting, why was it integrated into 
the talks.
    On the sidelines means on the sidelines and that it has no 
real bearing on what I consider a catastrophic deal that was 
signed with Iran.
    If we are going to sign it, at least the Americans out and 
they got away with it and they are continuing to grossly 
mistreat them.
    I had a hearing here, Mr. Ambassador, on North Korea. We 
had Andrew Natsios testify. You remember Andrew. He used to be 
the head of USAID. He did disaster relief.
    Well, it was on North Korea and he said why didn't we learn 
the lesson in North Korea that when we were talking even in the 
Six-Party Talks about nuclear issues, which we failed at, we 
never brought up human rights. It was always way over on the 
fringes, if that.
    And he said that lesson should have been learned with 
regards to Saeed Abedini and the other Americans who are being 
held. It should have been right there front and center and it 
was not, and now our ability to obtain his and the others' 
release has, regrettably, diminished.
    Trent Franks, who is chairman of the Religious Freedom 
Caucus for the House, has joined us.
    Chairman Franks.
    Mr. Franks. Well, thank you, Mr. Chairman. I will be 
incredibly brief here.
    You know that whatever the chairman has said I agree with 
every syllable and so it saves me a lot of time. But I do want 
to just underscore how significant your presence here is today 
and, of course, the underlying cause being, in my judgment, 
critical to any kind of freedom if we are going to survive.
    If we don't have religious freedom all other freedoms go 
with it. And there is a wonderful cadre of some of the heroes 
in my heart and life behind you.
    I just see so many good people there and so I am looking 
forward to their testimony. One of the things I guess I would 
hope that would be part of the discussion is that as we 
Americans are deeply committed to this cause of religious 
freedom, we want to make sure we export it to the world.
    It is just one of our greatest gifts that we can give them. 
We went to make sure that we don't see it undermined and 
diminished in our own country and right now I think that that 
is a sincere concern.
    So I guess my question to you--is that appropriate, Mr. 
Chairman? My question to you is how do we make sure that we 
protect religious freedom in our own country and then, of 
course, how do we make sure that we export it appropriately?
    What do you think are the biggest threats to religious 
freedom domestically and what is the answer to it, what is the 
biggest way that we can then export that religious freedom to 
other countries?
    Ambassador Saperstein. As the chairman in introducing me 
noted, I spent 35 years as a sideline of my life teaching 
religion law and church state law at Georgetown Law School and 
spent much of my life dealing with religious freedom 
domestically.
    It is an issue of great personal concern for me. But as 
representing the United States Government, my sole portfolio is 
dealing with international religious freedom.
    I can think of many good people in the administration and 
the Justice Department who can answer those questions directly. 
It would not be appropriate for me--as much as I care about 
that issue it would not be appropriate.
    Mr. Franks. I understand perfectly and, Mr. Chairman, I am 
going to yield back. But I will just express to you that I 
think if we can protect religious freedom all other freedoms 
will ultimately be extended. If we fail----
    Ambassador Saperstein. I could not agree more.
    Mr. Franks. If we fail religious freedom, I think all other 
freedoms die with it.
    Ambassador Saperstein. Again, on that--on that basis, Mr. 
Franks, first, thank you for your leadership on this issue. It 
has been extraordinary.
    But on that basis, I assure you, the administration feels 
as strongly as you do that our fundamental rights as depicted 
in the Constitution, begin with freedom of religion. It is a 
foundation stone on which other rights depend and it is one of 
the reasons I have devoted my life to this cause.
    Mr. Franks. I thank you for that devotion. God bless you 
and thank you, Mr. Chairman.
    Mr. Smith. Thank you, Chairman Franks.
    Ambassador Saperstein, thank you very much. We do 
appreciate your testimony and look forward to working with you 
going forward.
    Ambassador Saperstein. Thank you.
    Mr. Smith. I would like to now welcome to the witness table 
Dr. Robert George, Robbie George, who is chairman of the U.S. 
Commission on International Religious Freedom.
    He is the McCormick professor of jurisprudence and director 
of the James Madison Program in American ideals and 
institutions at Princeton University. He has served on the 
President's Council on Bioethics and as a presidential 
appointee to the United States Commission on Civil Rights.
    A graduate of Swarthmore College and Harvard Law School, 
Professor George also earned a Master's degree in theology from 
Harvard and a doctorate in philosophy of law from Oxford 
University.
    I would note that I appreciate your staff being here as 
well as Katrina Lantos Swett, who has served as chair of the 
commission herself and remains on the commission, Annette 
Lantos and, of course, we are always joined in this committee 
by the great presence of Tom Lantos' wonderful portrait, who 
served as chairman of the Committee on Foreign Affairs.
    Dr. George.

STATEMENT OF ROBERT P. GEORGE, PH.D., CHAIRMAN, U.S. COMMISSION 
               ON INTERNATIONAL RELIGIOUS FREEDOM

    Mr. George. Thank you very much, Mr. Chairman.
    It is a great honor to be here and I want to thank you and 
the distinguished members of this subcommittee for holding the 
hearing. The topic could not be more important or timely.
    Mr. Chairman, I thank you for everything you have done for 
human rights and in particular for religious liberty in your 
public life. You have been a great inspiration to me 
personally.
    I know I speak for other members of my commission in saying 
that all of us are happy for the opportunity to be partnering 
with you and with your colleagues to advance this great cause.
    I want to say that I miss Congressman Frank Wolf. So often 
in the past when I have been here to testify he has been here 
and what a towering figure in the cause of human rights and 
especially religious freedom, Frank Wolf continues to be. 
Although he is no longer a Member of Congress of course he is 
still out there literally doing the Lord's work on behalf of 
religious freedom.
    I was down at Baylor recently where, of course, he has been 
installed in a new endowed chair down there. He continues, as 
you know, to take great personal risks, going to the worst 
places in the world to comfort the afflicted and to afflict the 
comfortable, the powerful, the oppressors.
    I feel his spirit in this room. I also can't help but feel 
the spirit of Tom Lantos and Henry Hyde, the two great 
champions of human rights who are appropriately memorialized 
here in this room.
    I also want to say that it is a great honor to be speaking 
just after Rabbi Ambassador Saperstein. David is not only a 
dear friend but he too is a great champion of the cause.
    I strongly supported his confirmation as Ambassador-at-
Large and when he was confirmed I will admit to giving a cheer 
because I knew we would have in the administration, in that 
crucial role, someone who would be working night and day, 
literally tirelessly for our cause.
    Now, I am a realist. I have been around. I know that in a 
bureaucracy, in an administration there are difficulties, there 
are challenges. There are competing considerations.
    The voice for religious liberty has to compete with voices 
for many, many other things--many legitimate things.
    But I knew that I would be able to sleep peacefully at 
night knowing that there was someone there who would be doing 
everything I would be doing if I were there. There is no--there 
is not a man whom I would prefer in that position to David 
Saperstein. So I am just delighted that he is there and it is 
an honor to follow him at this microphone.
    I thank you for recognizing my colleague and predecessor as 
chairman, Katrina Lantos Swett, another great champion of 
religious liberty.
    I want to mention that we are here, Chairman Smith, with 
our wonderful executive director, Jacklyn Woolcott, and several 
members of our staff.
    I would boast that we have the finest staff in the United 
States Government. It is a small team but what consummate 
professionals and dedicated people, people who are genuinely 
dedicated to the cause of religious freedom.
    And I just find it a privilege every day to be working with 
them, and I am delighted to be here on International Religious 
Freedom Day. This is a day to celebrate.
    I know we are all, as Congressman Franks rightly mentioned, 
I think Congressman Meadows mentioned, others have mentioned, 
we are all at a certain level just depressed about the state of 
religious freedom in the world.
    I am going to go into that in a minute just how bad the 
situation is. But we do have something to celebrate and that is 
that this Nation in the International Religious Freedom Act, in 
which you were so instrumental, which Frank Wolf was so 
instrumental, many of you were so instrumental in getting us, 
this Nation has committed itself not only to religious freedom 
at home but also abroad. What we believe to be a universal 
value is something that every human being on the face of the 
earth is entitled to because as Henry Hyde taught us, every 
human being is the bearer of a profound, inherent, and equal 
dignity.
    That is the foundation of our rights. There is no right 
more central than the right to religious freedom. So we should 
take a moment, even as we recharge the battery to redouble our 
efforts in the face of so many adversities on the religious 
freedom front, we should take a moment to celebrate today and 
to thank people like the chairman who are so instrumental in 
getting the act passed.
    Now, of course, one of the reasons we are here today is 
that religious freedom remains under serious and sustained 
assault across the globe, whether we are talking about North 
Korea or China or Vietnam across to Iran, Pakistan, Saudi 
Arabia, obviously, Syria and Iraq over to Egypt, Nigeria, 
Central African Republic, Cuba, problems in Russia. Almost 
every where we look we see severe assaults on religious 
freedom.
    So we have to be the people who are standing up for it and 
while I am under strictures very similar to those under which 
Rabbi Saperstein is operating, I will say, Congressman Franks, 
that I think we should all agree that the very best way we can 
promote religious freedom abroad is to honor it vigilantly at 
home. I think we should all be on the page for that one.
    Now, the most recent Pew study reports that approximately 
three-quarters of the world's people live in countries in which 
religion is either significantly restricted, the free exercise 
of religion is significantly restricted, or people are 
subjected to brutality by nongovernmental actors, mobs, thugs, 
terrorists, where people are living insecurely in respect to 
their basic human right to religious freedom and that is quite 
an indictment of our current circumstances.
    We are also here today because religious freedom matters so 
much, a pivotal human right central to our own history and 
affirmed, of course, in international treaties and other 
instruments.
    It is also crucial to our security and to the security of 
the world. Religious freedom issues and religious freedom 
violations are central to the narratives of countries that top 
the U.S. foreign policy and security agendas.
    Effectively promoting religious freedom can help the U.S. 
achieve crucial goals by fostering respect for human rights 
while promoting stability and ultimately national security.
    So what I am saying to you is we have a moral principal at 
stake here which we should vie for with all our might and that 
is the basic fundamental human right to religious liberty 
rooted in the dignity of the human person.
    We also have an additional motive, though, which is that 
the security and stability that we want for ourselves and 
therefore need in the world is at risk when religious freedom 
is undermined abroad.
    If we want peace and stability in the world and at home we 
are going to need to promote religious freedom abroad. So today 
I want to focus on the following.
    First, how the International Religious Freedom Act has been 
used and should be used; second, what the CPC process is, the 
Countries of Particular Concern process is; and third, 
recommendations that our commission has for promoting 
international religious freedom.
    Now, the IRFA law seeks to make religious freedom an 
important part of U.S. policy by among other measures creating 
governmental institutions to monitor and report on religious 
freedom violations in the countries of the world.
    Within the State Department, we have got an Ambassador-at-
Large position, of course, the position that is currently held 
with great distinction by our friend, Rabbi Ambassador 
Saperstein, and the Office of International Religious Freedom, 
and outside the executive branch the independent nonpartisan 
United States Commission on International Religious Freedom 
mandated to review religious violations and make 
recommendations to the President, the Secretary of State and 
the Congress.
    The law gave teeth to this effort by requiring the U.S. 
Government, to designate Countries of Particular Concern 
(CPCs), thereby naming, perhaps shaming, the worst foreign 
government violators, those that engage in or tolerate 
systematic ongoing and egregious violations. That is the 
statutory standard.
    That is the language, systematic ongoing and egregious 
violations, and take appropriate actions in response to create 
incentives for improvement in religious freedom and 
disincentives for inaction or failures on the religious front 
or further failures.
    Now, unfortunately, neither Republican nor Democratic 
administrations have fully, have adequately, utilized this 
mechanism, with designations being too often infrequent and the 
CPC list largely remaining the same when changes would, one 
would think, indicate some changes in CPC designations.
    Moreover, administrations generally have not levied new 
Presidential actions but relied on preexisting sanctions which 
such so-called double-hatting--the chairman introduced the 
concept in his opening remarks--providing little incentive for 
governments to reduce or halt egregious violations or waived 
any consequences of the designations.
    Designating CPC countries without additional consequences--
just making the designation, with no additional consequences--
obviously limits the value of doing the designations and the 
CPC process as a result loses credibility, especially when the 
designations are erratic.
    The other thing we need to avoid is having a designation 
never reviewed so that, to quote my dear colleague, Dr. Lantos 
Swett, the designation becomes part of the wallpaper. Nobody 
notices it is there anymore. Just life goes on.
    So we need these designations in a timely manner. I would 
like to see them made annually in connection with the report.
    And I know David is working on that and I appreciate that, 
David, very much the work that David is doing to make sure that 
the administration and future administrations, Republican or 
Democrat, as the chairman says, this is not a partisan deal--
this administration and future administrations will make those 
designations in a timely manner and a regular manner.
    The designation process and the possibility of punitive 
actions can breathe new life into diplomatic efforts that 
should both precede and follow a designation and stimulate 
political will in foreign capitals.
    One of USCIRF's chief responsibilities is to recommend the 
CPC designations to the State Department. We have recommended 
that the following eight countries be redesignated--Burma, 
China, Eritrea, Iran, North Korea, Saudi Arabia, Sudan, 
Turkmenistan, and Uzbekistan.
    USCIRF also recommended that eight others also be 
designated--Central African Republic, Egypt, Iraq, Nigeria, 
Pakistan, Syria, Tajikistan, and Vietnam.
    While my written testimony, which I will submit, Mr. 
Chairman, deals with three countries--Vietnam, Pakistan, and 
Tajikistan, and my oral statement will focus on Vietnam in a 
moment--it is important to note that Pakistan, a democratic 
nation, Pakistan has the worst situation in the world for 
religious freedom for countries not currently designated as 
CPCs.
    I also want to say that not designating Tajikistan 
underscores the Religious Freedom Act's inconsistent 
implementation, I just learned from our excellent expert, Cathy 
Cosman, on Central Asia that the situation in Tajikistan, 
horrific already, is deteriorating still further.
    More abuses, tortures, people being hauled away. These are 
exactly the kinds of atrocities that the act is supposed to 
empower us to fight against.
    All right, now, Vietnam. USCIRF's August 2015 visit 
reinforces our view that Vietnam falls short of meeting 
international religious freedom standards.
    The Vietnamese Government controls nearly all religious 
activities, restricts independent religious practice, and 
represses individuals and groups challenging its authority.
    Rabbi Saperstein filled you in on some of the additional 
details and the nuances that one finds there today.
    Vietnam provides us with a case study of the impact that a 
CPC designation can have in encouraging improvements and 
reinforces how such a designation does not disrupt progress in 
other areas. So I am going to actually repeat some, and maybe 
add a little more color and detail, to a story that the 
chairman recounted in his opening remarks.
    In 2006, so we are going back to the Bush administration--
Bush 43--the United States removed Vietnam's CPC designation 
due to the country's progress, progress toward fulfilling a 
bilateral agreement to release prisoners and expand legal 
protection for religious groups.
    Many attributed, I think rightly, looking back on it, this 
progress to the CPC designation, at least in part, and to the 
priority placed on religious freedom concerns in the U.S.-
Vietnam bilateral relations.
    In other words, it worked. USCIRF's view that lifting the 
designation was premature has been reinforced and confirmed by 
the Vietnamese Government's actions since then and USCIRF thus 
recommended in 2015, as it has since 2001, that Vietnam be 
designated a CPC.
    I am going to move now to my recommendations. Again, more 
details are in the written submission, Mr. Chairman.
    Congress has an essential role to play in promoting 
religious freedom. That was part of the premise of the IRFA and 
it is absolutely true.
    USCIRF urges Members of Congress to undertake activities 
that reflect religious freedom's vital importance to our 
foreign policy including by the following means: One, 
legislatively requiring the State Department to make annual CPC 
designations.
    I think that is something that would be very helpful. Let 
us just mandate the annual designations, then it is the law, 
get it done, move forward. I don't see any reason not to do 
that. Number two, annually hold IRFA implementation oversight 
hearings. A very good thing to do for obvious reasons.
    Three, expand the CPC classification, as the chairman 
already mentioned and I believe Rabbi Saperstein mentioned, to 
allow for the designation of non-state actors in countries 
where particularly severe violations of religious freedom are 
occurring.
    But what if a government does not exist or is not strong 
enough or doesn't control its territory? If we look out in the 
world, we see sometimes the big offenders are states that are 
run by thugs and criminals who are hell-bent on violating other 
people's religious freedom, persecuting minorities, oppressing 
the people.
    Sometimes there is nothing a government can do about it 
because there is no government there. You have got a failed 
state or the government is so weak that it can't actually do 
anything even if it wanted to.
    And then expand the CPC classification--again, the chairman 
mentioned this--to allow the naming of non-state actors who 
perpetrate particularly severe violations of religious freedom. 
That may assist in a variety of ways including in respective 
international financial transactions.
    I also urge Congress to hold hearings in support of civil 
society and prisoners of conscience abroad and I want all 
Members of Congress--I think those who are here with us today 
are already doing it, so bravo, but I would like to see all 
Members of Congress participate in our Defending Freedoms 
Project, our collaborative effort with the Tom Lantos Human 
Rights Commission and Amnesty International and USCIRF whereby 
Members of Congress work in support of prisoners of conscience.
    I think you shouldn't underestimate what the identification 
of a particular prisoner of conscience, whether in North Korea, 
Iran, Saudi Arabia, wherever it is, don't underestimate what 
the identification with a particular congressman who makes it 
part of his or her task, mission, vocation to make sure that 
that person is not forgotten, make sure that somebody is paying 
attention, perhaps in the media, perhaps in diaspora 
communities.
    It also is a kind of moral support not only for that 
individual and for that individual's family, which is very 
important, but again, often for the supporters, for the 
diaspora groups, for the members of that faith.
    We can and will see constructive change by improving our 
use of the existing tools and creating the new tools I have 
mentioned for a rapidly changing environment for religious 
freedom and related rights.
    If we renew our resolve, and that's what we need to do, 
renew our resolve to integrate this fundamental freedom more 
fully into the foreign policy of our Nation, we can bring 
protection and support to many, many more people beyond our 
shores who yearn for the freedom that we have and must 
preserve.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. George follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                   ----------                              

    Mr. Smith. Thank you very much, Dr. George.
    We have about a minute left on this vote and there are four 
votes. Can I enquire what your time looks like? Can we come 
back?
    Mr. George. Would you like me to wait until you come back? 
I would be happy to do that, Mr. Chairman.
    Mr. Smith. I would probably ask one question to start it 
off.
    Mr. George. Absolutely.
    Mr. Smith. And then we will reconvene. You know, in talking 
about Vietnam, I remember meeting with Ambassador-at-Large John 
Hanford several times and he often talked about the 
deliverables, whether it be Saudi Arabia, which was making a 
great deal of suggestive noise that somehow they would clean up 
their textbooks and much of their support that we found very 
objectionable, particular the Wahabbis would be reined in on 
but especially on the textbook issue.
    With Vietnam, the deliverables were quite extensive and I 
went over to Vietnam, met with a number of pastors. There was a 
great deal of optimism and hope and, again, as I said, if you 
want me to go to Rabbi Saperstein, almost a day after there was 
a snap-back retaliatory repression against the faith believers.
    The Vietnamese are doing now exactly what the Chinese 
learned long ago to do and they are just parroting that and 
signing the U.N. conventions and treaties or at least 
suggesting that they will, which are not enforceable.
    They exhort, they have no means of enforcement so it only 
looks good. I lost track of the number of times that a Chinese 
leader came here, and he would say now we are going to sign the 
International Covenant on Civil and Political Rights. But they 
didn't do it.
    Then they didn't do it and then a year would go by, 
somebody else would come in. They would talk about signing 
another.
    My question is, how do you make this durable? CPC just 
means we designate. What the administration does in follow-up 
is part two and ought to be done based on a calibrated response 
to deeds, not words. And I am very concerned that we ought to 
just get it right on CPC.
    And one word about TPP. I went in a secret room and read 
the agreement. I was appalled at the unenforceability of the 
human rights section, so called, especially as it relates to 
labor rights, which you would have thought with labor heavily 
weighing in on the administration to do the right thing and to 
follow true ILO standards in an enforceable fashion, it is just 
not there.
    It is left up to the country itself to deem what needs to 
be done in any situation. It puts at risk our ability on CPC, 
on trafficking, and other human rights issues to enforce it. I 
am wondering now whether or not we can actually enforce some of 
our current laws when it comes to human rights with regard to 
the TPP signatory countries. So it could be a massive setback, 
not an advancement.
    This idea of designation of CPC ought to be a no-brainer 
based on the facts on the ground and then let the 
administration decide what to do from a simple demarche to a 
whole bunch of other things that could be done.
    Mr. George. Well, Congressman Smith, I am hoping to learn 
more soon about why some of these offending nations will sign 
on to treaties, especially human rights conventions, that they 
have no intention of abiding by or sometimes decline to sign 
and it is hard to know why they sometimes decline to sign, 
sometimes sign but ignore.
    But as it happens, my daughter, Rachel George, who is doing 
her Ph.D. at the London School of Economics in international 
relations is writing her dissertation on exactly this question.
    So I hope to learn something and I will share it with you 
when Rachel produces the goods. But it is a----
    Mr. Smith. We are at zero and could you just hold that?
    Mr. George. Yes, absolutely.
    Mr. Smith. Quick recess, and then we will come back and I 
thank you for your patience.
    [Recess.]
    Mr. Smith. The subcommittee will resume its sitting and I 
apologize for that rather lengthy delay.
    So Dr. George, you were in the middle of an answer, I know, 
so you were done or no?
    Mr. George. Yes, Mr. Chairman, you had asked about some 
nations that sign on to human rights treaties and conventions 
but then just flout them because there obviously is no 
international human rights law enforcement mechanism.
    My day job is as a legal philosopher and one of the great 
questions in my field of philosophy of law is whether 
international law is really law, since we don't have so many 
cases, at least, formal enforcement mechanisms, international 
police forces. We do have international courts but, of course, 
they are limited in their jurisdiction.
    So what do we do? Well, we incentivize good behavior and 
disincentivize bad behavior in the construction and execution 
of our foreign and diplomatic policy. That is what we do.
    We can't act for the world but we can act for ourselves. 
The United States really matters. It is very important. We have 
a big impact on other countries. How we treat them matters to 
them, especially when it comes to trade or geostrategic and 
military concerns.
    And that is why, Mr. Chairman, we cannot--and this was the 
spirit behind IRFA, as you know, since you were so significant 
in it--the spirit behind IRFA is the spirit that says trade 
considerations, geostrategic and military considerations, those 
are important, those do matter; it is important that there be 
powerful lobbies for those interests and there will be. The 
question is will there be an equally or similarly powerful 
lobby for human rights and especially for religious freedom and 
what the IRF law helps to do through the ambassadorship, 
through the U.S. Commission on International Religious Freedom 
is to ensure that there is a voice for religious freedom, a 
lobby for religious freedom at the table speaking on behalf of 
the persecuted and the marginalized and the victims of 
discrimination and oppression.
    So all these mechanisms we have been talking about, Mr. 
Chairman, the CPC designations, avoiding the double-hatting, 
making sure that waivers aren't institutionalized permanently 
in such a way that they undercut CPC designations, all these 
tools are mechanisms for doing exactly what I said, 
incentivizing good behavior and improvements, disincentivizing 
the bad behavior.
    Mr. Smith. You pointed out that Pakistan has a very serious 
negative record when it comes to religious freedom and I wonder 
if you might want to expand upon that. Without your full 
statement will be made a part of the record.
    When the Prime Minister was in town just a few days ago I 
raised the issue, a number of them, including Ms. Bibi, who is 
a Christian mother, who got a stay of execution by the Supreme 
Court in July.
    But, as we know, that can change and, you know, there is an 
appeal going on and I did ask the Prime Minister to use his 
good offices to intervene on her behalf.
    I impressed upon him how all of us are deeply concerned 
about the blasphemy laws, the Taliban having a tremendous 
amount of ability to do terrible things with very little 
pressure to stop and I wonder if you might want to expand upon 
Pakistan, if you could speak to that?
    Mr. George. Yes, I will, Mr. Chairman.
    As I mentioned in my testimony, Pakistan, in the view of 
our commission represents the worst situation in the world for 
religious freedom for countries that are not currently 
designated a CPC by the U.S. Government.
    We have several recommendations for CPCs, for countries 
that are not currently CPCs, but at the very top of the list is 
Pakistan because of the scope and depth of the religious 
freedom abuses there.
    Since 2002, USCIRF has recommended CPC designation for 
Pakistan. That is a lot of years and that is due to the 
government's systematic ongoing and egregious violations of 
religious freedom and violations by the Taliban and by other 
non-state actors.
    So if you just read the statute, apply the law, ask the 
question does Pakistan meet that standard, systematic egregious 
and ongoing, the answer is it does.
    So in our view it really belongs on the CPC list. Now, of 
course, the State Department has never designated Pakistan as a 
CPC despite its own IRFA reports, despite our annual report at 
USCIRF, and despite the lobbying and the support, the reports, 
of nongovernmental organizations, all of which document the 
severe religious freedom violations, the persecutions against a 
wide variety of groups, Mr. Chairman, including Sunni, Shi'a, 
and Ahmadi Muslims.
    I want to especially highlight the mistreatment of Ahmadis 
in Pakistan where the very constitutional law of the government 
systematically discriminates against them and violates their 
rights.
    They are forbidden to call themselves Muslims even though 
in conscience they believe themselves to be Muslims. They can 
lose their right to vote. They are not allowed to greet each 
other or others with the traditional Muslim greeting of peace.
    And there are other groups, of course, that are victims 
including Christians and Hindus. In March of this year, we sent 
a commissioner-level delegation to Pakistan and what they found 
is, of course, all Pakistanis are deprived of fundamental and 
universal rights including the right to freedom of religion and 
belief.
    And on the last day that our delegation was there two 
churches in Lahore were attacked, leaving 15 people dead as 
well as dozens of others injured.
    And, of course, you mentioned the blasphemy laws. Pakistan 
detains the greatest number of individuals for blasphemy of any 
country in the world.
    We are aware of 38 blasphemy prisoners as of our 2015 
report. The world, of course, has come to know Asia Bibi, a 
Christian woman in jail since 2010, who faces the death penalty 
for blasphemy. But she is probably just the most well known of 
what are in fact many.
    And it is for all those reasons, Mr. Chairman, that we 
believe great pressure needs to be brought to bear on Pakistan 
to improve its record on religious freedom and until reforms 
are made, Pakistan deserves to be on the CPC list.
    Mr. Smith. Let me just ask you, if you are concerned as I 
am, about conforming human rights designations to accommodate 
other political considerations.
    As I mentioned earlier to Rabbi Saperstein, on the child 
abduction law I was incredulous that Japan, even though it has 
more than 50 cases, according to the Center for Missing and 
Exploited Children, of abduction cases, was given a complete 
pass.
    If you even have one that goes past the Hague Convention 
time of 6 weeks, one can get such a designation. But when you 
have five, ten, 50 it is a no-brainer. And yet, the State 
Department Office of Children's Issues that takes the lead on 
this gave Japan a pass.
    And Tier 3, I mentioned Malaysia, Vietnam, and Cuba, and 
now on CPC, Vietnam and that seems to be driven in part by the 
TPP.
    The commission's view on just getting it right in the 
report and then reasonable men and women can disagree on what 
the sanction ought to be, although I think double hatting it 
diminishes it greatly. But could you speak to that? Because, 
you know, this is a serious problem, and then we get these glib 
statements that somehow the TPP has human rights language in 
it.
    Let me just disabuse anybody who thinks that. Just read it. 
It is feckless. It is ineffective. It is not going to 
effectuate any kind of change because there is little or no 
enforcement contained in it.
    I went and I read it and I would hope more people would and 
maybe it is not public yet. It ought to be. But this idea that 
the different reports keep getting it wrong when the country in 
question has some other strategic or geopolitical issue going 
for it.
    Mr. George. Well, that is it, of course. You put your 
finger on the problem. I think it is very important to get the 
rules and standards right.
    That is why I, at the time, so strongly supported the 
International Religious Freedom Act and why I continue to 
support it and why I support the efforts by you and others to 
update the act and reform the act, correct what needs to be 
corrected, bring it up to date with our contemporary 
challenges, for example, in the area of non-state actors and so 
forth.
    But getting the laws and the rules right is only half the 
battle. Now, it is a necessary half because getting the job 
done will require getting the laws and the rules and the 
standards right as a necessary condition.
    What is the other half? It is political will, Mr. Chairman. 
It is having the will the stand up for religious freedom when, 
precisely when, there are competing considerations, when there 
are competing trade, economic considerations, military and 
geostrategic considerations.
    And I want to stress that none of us are belittling or 
denigrating those considerations. They are very important. We 
want prosperity for ourselves and for others. We want 
functioning markets.
    We want trade with all the nations in the world. We 
certainly want to be in a strong position as far as our 
national security is concerned.
    We want a strong military that is operating in relation to 
other countries properly throughout the world to ensure the 
security of the United States and the world to the extent that 
we have any responsibility for it or can affect it.
    But that should never be permitted to be an excuse for 
inaction, for the lack of political will to stand up for 
religious freedom and for other basic human rights.
    So we have got to muster the political will to do it and 
where somebody points to language and a law or statute or 
points to a standard when we have asked for action I think you 
are right to say that is not enough.
    The pretty language doesn't get the job done for persecuted 
people and prisoners of conscience. You need the political will 
to act.
    But I will just conclude on this point, Mr. Chairman, by 
saying that the beauty of democracy is that the people get to 
influence these sorts of things.
    And so I do hope that we as a people, not just our 
political leaders but that we as a people will give the kind of 
priority that religious freedom deserves for the persecuted 
people of the world and if we get that there are going to be a 
lot of people sent up here and into other offices that will 
have the political will to get the job done.
    Mr. Smith. Let me just ask you with regards to the U.N. 
system and whether or not the commission interfaces with the 
Human Rights Council, Prince Zeid, or the U.N. Special 
Rapporteur on freedom of religion or belief, Professor 
Bielefeldt, does the commission have contact with them? How do 
you find their work to be? Can you give any sense of its 
quality?
    Mr. George. I am not sure I heard the question. I don't 
want to make----
    Mr. Smith. The U.N. Special Rapporteur on freedom of 
religion or belief, is there any kind of interface with the 
commission and his office and him?
    Mr. George. It is the U.N. Special Rapporteur----
    Mr. Smith. Yes.
    Mr. George [continuing]. That you are asking about? Yes, 
okay. So our commission does interact not only with the U.N. 
rapporteur and other U.N. offices that are concerned with 
religious freedom but also with our peer institutions in other 
countries, for example, in Canada and in some of the European 
countries.
    We also recently participated in and helped to organize an 
international parliamentarians panel and we are grateful to 
you, Mr. Chairman, for providing a wonderful letter of greeting 
to the parliamentarians from all over the world who visited us 
in New York to talk about how legislative bodies in the 
democratic countries around the world could unite in the cause 
of religious freedom.
    So we have very good relations and our staff has really 
been terrific about building relationships with others who are 
committed to the same cause because it is, after all, 
international religious freedom and while the United States can 
do an awful lot by way of our foreign and diplomatic policy, we 
are going to be able to do a lot more if we are coordinating 
with other nations, especially other influential powerful 
wealthy nations, but really with all nations, anybody who is 
willing to join us in the fight for international human rights.
    The bottom line there is that we are doing everything we 
can to work with anybody who is willing to work with us to 
advance this cause.
    Mr. Smith. I have one final question and then I will yield 
to Chairman Rohrabacher, and I will have to leave. I am opening 
up a session on autism.
    Sesame Street today is introducing a character who is an 
autistic child to try to raise the profile among young people. 
But let me just--the Frank Wolf International Religious Freedom 
Act--do you support it?
    Mr. George. Absolutely. Now, I guess I better speak for 
myself here and not for the whole commission because we haven't 
had a vote of our commissioners. So let me step out of my 
official role as chairman and support it.
    I will note that the act includes many provisions that are 
almost identical to recommendations that we have, as a 
commission, made. So, like our recommendations, these 
provisions would better equip our Government to support 
international religious freedom.
    For example, it amends IRFA to locate the Office of 
International Religious Freedom in the office of the Secretary 
of State.
    USCIRF believes that, given the importance of the issue and 
the customary placement of an Ambassador-at-Large that the IRF 
office ought to be given really more prominence in the State 
Department hierarchy.
    I suspect we are on the same page here, Mr. Chairman, 
wanting David Saperstein to have as much influence as he 
possibly can. But we would want any Ambassador whose job is to 
promote religious freedom to have the maximum amounts of 
influence and access.
    It specifies additional foreign government actions 
violating religious freedom for the annual International 
Religious Freedom Report including a special watch list of 
countries of violent non-state actors that have engaged in or 
tolerated such violations but don't yet quite meet the criteria 
for designation as Countries of Particular Concern.
    That really corresponds, roughly but closely, to what we 
call our Tier 2 countries--countries like Russia, for example.
    It amends the Foreign Service Act of 1980 to direct the 
Secretary to develop a curriculum for and the director of the 
George B. Schultz National Foreign Affairs Training Center to 
begin mandatory training on religious freedom for all Foreign 
Service Officers.
    That is a very good idea. The officers who are the 
diplomatic corps really need to be educated on the importance 
of religious freedom as an essential human right and as a key 
to stability and security.
    I mean, one of the problems we have had--I am not blaming 
anybody for this. If there is anybody to blame it is those of 
us who are in the academic field.
    Those of us in the academic field cooked up a theory called 
secularization theory or the secularization thesis and this was 
the widely believed thesis for which there was some evidence.
    Turned out to be false but we had some--there was some 
evidence for the theory that as modernity proceeded with 
industrialization and mass media and global economy, as 
modernization proceeded religion would recede, basically, to 
the private sphere and be less and less a matter of public 
interest so why did people who were training for careers in 
international affairs or diplomacy need to care much about 
religion. It would be just a private matter.
    Well, that turned out to be spectacularly false. We now 
know that religion is increasing in its public significance, 
for good and for ill, which means that now that we know that 
that thesis is false we also know that people who are going to 
be acting on our behalf in the international sphere, whether 
they are themselves devout or believers or not, need to have an 
appreciation and understanding of what religion is and how it 
works and of the importance of religious freedom both as a 
right that we as a country are deeply committed to on our very 
founding principles but also as part of the solution to 
instability and insecurity.
    We talked about the waivers in double-hatting and I think 
your bill would be a big help in strengthening the IRFA tools 
there to make sure that they are not undercut by double-hatting 
and by waivers that are given indefinitely and without 
conditions.
    Your bill also states that it should be U.S. policy that 
violent non-state actors should be eligible for designation as 
Countries of Particular Concern and that specified Presidential 
actions should apply to them or individual members of such 
groups.
    We at USCIRF strongly support that. I can speak for 
everybody on that one. The world has changed. The world is not 
what it was in 1998. It wasn't a mistake in 1998. It is just 
that things have changed and now the act needs to be updated to 
just deal with the reality in the world, a reality in which we 
are facing the Islamic State, we are facing Boko Haram, non-
state actors in those and other places that are just really 
wreaking devastation.
    I could go on, Mr. Chairman, I know you have to go, and my 
written submission will go into more detail about these 
matters.
    Mr. Smith. Thank you so very much.
    Dr. George, thank you for your exemplary leadership on 
these issues both as head of USCIRF but also in all of the 
other work that you do.
    I have watched it and admired it for decades. So I want to 
thank you. I would like to yield to Chairman Rohrabacher, who 
will take over the hearing, and I thank you.
    Mr. George. Thank you, Mr. Chairman.
    Mr. Rohrabacher. Mr. Chairman, what five nations would you 
consider to be the worst abusers of religious freedom?
    Mr. George. Well, there are so many good candidates, I am 
afraid, Congressman Rohrabacher, that it is hard to narrow it 
down to five but let me give it a first stab on some 
reflection. I might alter it a bit at the edges. But North 
Korea is a terrible violator.
    Mr. Rohrabacher. Okay.
    Mr. George. China, such a large country and so many people 
from so many different religious groups, so brutally 
repressed--the Buddhists in Tibet and elsewhere, the Catholics, 
the house church Protestants, the Falun Gong members, the 
Uyghur Muslims.
    Mr. Rohrabacher. Okay.
    Mr. George. The regime in Tehran, I have to say, is a 
world-class religious freedom abuser. So Iran has to be 
considered among the worst.
    Mr. Rohrabacher. So there are not Christian churches in 
Iran and they can't function or people----
    Mr. George. Well, there are Christians in Iran but, of 
course, they are subject to the same persecution that any 
religious minority group is subject to in Iran.
    Mr. Rohrabacher. Would Pakistan be on the list?
    Mr. George. Pakistan is the worst offending nation of those 
not currently designated as CPCs, which means that they would 
be in the top ten. Whether they would be in the top five I 
would want to give that a little bit of reflection.
    Mr. Rohrabacher. I would suggest that if Pakistan is not on 
the list, it demonstrates that for whatever reason Pakistan has 
been protected for some other motives by our Government over 
these last 25, 30 years. During the Cold War----
    Mr. George. And we would note that whatever those reasons 
are and perhaps they are good reasons--since they haven't been 
shared with me I can't evaluate their strength--but I would 
note that it is not partisan because----
    Mr. Rohrabacher. Oh, yes. Sure.
    Mr. George [continuing]. We have been recommending CPC 
designation going back into the early years of the Bush 
administration.
    Mr. Rohrabacher. Well, during the Cold War the Pakistani 
Government was involved with the Cold War.
    Mr. George. Yes. That is right.
    Mr. Rohrabacher. They were our allies and India was 
basically an ally of Russia during the Cold War. The Cold War 
has been over a long time now and the monstrous repression of 
the people of Pakistan who have differing religious views from 
the ruling clique that whoever rules there is very 
demonstrable. And now, don't the Ahmadis--is that----
    Mr. George. Yes. Let me say a word about that.
    Mr. Rohrabacher [continuing]. Not just Christians but there 
is Ahmadis, there are other Muslims that are being murdered 
and----
    Mr. George. Yes.
    Mr. Rohrabacher [continuing]. This is horrendous. It is 
horrendous that that is going on and yet we still provide 
weapons to Pakistan, not to mention, of course, they thumb 
their nose at us by putting Dr. Afridi, the man who identified 
Osama bin Laden for us, he is in a dungeon right now even as we 
give F-16 fighters to Pakistan and, of course, the same group 
that threw Dr. Afridi in jail are the same people who gave 
Osama bin Laden safe haven--the man who slaughtered 3,000 
Americans.
    There is something really wrong there and I hope that 
people--if they won't pay attention to the strategic things 
like their support of someone who was involved in the 9/11 
attacks maybe they would have some heart for other people--just 
ordinary people who are being murdered and slaughtered because 
they just want to pray to God in a different way.
    Mr. George. Chairman Smith mentioned Bhatti earlier. There 
have been some great heroes who have tried to stand up against 
the persecution there at the cost of their very lives or their 
liberty.
    And it is not just the regime when it comes to Pakistan 
which is, after all, a democratic nation. If you look at the 
persecution of the Ahmadis and of other minorities including 
Christians we have a cultural problem there as well.
    It is similar to, I think, what you yourself pointed to in 
Burma or one of the congressmen pointed to in Burma earlier 
where the cultural prejudice against minorities, and 
particularly in this case the Ahmadis, is very powerful.
    It is not just the government. The anti-Ahmadi provisions 
of the very constitution of the nation are there because of 
public attitudes, really, and sometimes when, you know, we are 
in touch with officials and we are trying to bring pressure to 
bear on officials they will say to us, well, you don't know 
what you are asking because we have got a civil society to deal 
with here and we can't just put into place policies that would 
be easier on our minorities because the people won't tolerate 
it. We hear this from the Saudis, by the way. We talk about the 
need----
    Mr. Rohrabacher. Oh, sure. Of course.
    Mr. George [continuing]. You know, for respect for--there 
are a lot of Christian guest workers, Filipinos and others, in 
Saudi Arabia who would like to be able to carry their Bibles or 
have a church. On the whole Saudi Arabian peninsula there is no 
church--there is no Christian church, right. Why can't they?
    Well, we confront Saudi officials and they say well, you--
maybe we would like to make some reforms here and make it a 
little easier for these people to practice their faith but, you 
know, our civil society wouldn't permit it.
    I mean, it just--it just couldn't fly, given the sociology 
of our people here. And I think we just can't accept that. We 
cannot accept that.
    Mr. Rohrabacher. Correct.
    Mr. George. These regimes are responsible for making the 
reforms that protect the human rights, including the 
fundamental right of religious freedom of all the people within 
their jurisdictions including their minority citizens and 
guests.
    Mr. Rohrabacher. I remember during the Cold War having to 
sit down with people who were representing Communist 
governments who always had these excuses and----
    Mr. George. Yes.
    Mr. Rohrabacher [continuing]. And were never willing to 
admit just how oppressive they really were. I think it is time 
that we insisted that they face this reality of what Marxism/
Leninism is all about.
    I think it is time that--there are many millions of Muslims 
around the world, many if not most who could be friends and be 
open to these kind of ideas of accepting people and not 
oppressing somebody simply because they worship God in a 
different way.
    We need to call to task the Saudis and the Pakistanis and 
these other people who have supposedly been on our side and 
quit trying to treat them with kid gloves because it ain't 
going to work.
    These regimes are basically gangster regimes in terms of 
the way they treat their people and it shouldn't be tolerated 
and the United States has done that. Shame on us.
    Thank God for you and Chris Smith and other people who have 
committed their lives to exposing those people who are stepping 
on the religious freedom of other human beings.
    Thank you very much for being with us today, and I think I 
am supposed to gavel this down.
    This hearing is now adjourned.
    Mr. George. Thank you, Mr. Chairman.
    [Whereupon, the committee adjourned at 3:09 p.m.]

                                  

                            A P P E N D I X

                              ----------                              

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
